                             Office of Inspector Ge
                            Corporation for




         Pre-Audit Survey of the
Montana Commission on Community Service
        OIG Report Number 04-18




                               Prepared by:

                      COTTON & COMPANY LLP
                   333 North Fairfax Street, Suite 401
                       Alexandria, Virginia 22314


This report was issued to Corporation management on August 23, 2004. Undelr
the laws and regulations governing audit follow-up, the Corporation is to makb
final management decisions on the report's findings and recommendations no
later than February 23, 2005, and complete its corrective actions by August 23,
2005. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                   COT                  &COMPANYLLP
                                       auditors + advisors




May 2 1,2004


Office of Inspector General
Corporation for National and Community Service


Cotton & Company LLP performed a pre-audit survey of the Montana Commission on
Community Service (Commission). We performed this pre-audit survey in accordance with the
terms of the statement of work dated February 23,2004, by and between Cotton & Company and
the Office of Inspector General (OIG), Corporation for National and Community Service.

The primary survey objectives were to evaluate the adequacy of the:

       rn      internal controls over grant management;

               pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees.

We conducted our procedures in accordance with Government Auditing Standards issued by the
Comptroller General of the United States. We were not engaged to and did not conduct an audit
of financial statements, the objective of which would be the expression of an opinion.
Accordingly, we do not express such an opinion. Further, our procedures were not sufficient to
express an opinion on the Commission's internal control or on its compliance with laws,
regulations, contracts, and grants. Accordingly, we do not express such an opinion. Had we
performed additional procedures, other matters might have come to our attention that would have
been reported.

This report is intended solely for the information and use of the OIG and is not intended to be,
and should not be, used by anyone other than the OIG.

COTTON& COMPANY
              LLP



Michael W. Gillespie, CPA, CFE
Partner
                                                  Contents

Section                                                                                                 page
Summary of Results ................................................................................      1

Background ..........................................................................................    2
  Corporation for National and Community Service ..........................................              2
  Montana Commission on Community Service ..............................................                 3

Objectives. Scope. and Methodology ............................................................. 4

Results of Fieldwork ...............................................................................     4
  Internal Controls .................................................................................    4
  Selecting Subgrantees ..........................................................................       6
  Administering Grant Funds ...................................................................          7
  Evaluating and Monitoring Grants ...........................................................           8

Appendix A: Funding Hierarchy Flowcharts

Appendix B: Detailed Engagement Objectives and Methodology

Appendix C: Montana Commission on Community Service Response

Appendix D: Corporation Response
                       PRE-AUDIT
                               SURVEY OF THE
                 MONTANA
                       COMMISSIONON COMMUNITYSERVICE


SUMMARY OF RESULTS

Cotton & Company LLP was engaged by the Office of Inspector General (OIG), Corporatioln for
National and Community Service (Corporation), to provide an assessment of systems and
procedures in place at the Montana Commission on Community Service (Commission) for
administering AmeriCorps grants and monitoring the fiscal activity of subgrantees. The priqary
purposes of the pre-audit survey were to evaluate the adequacy of the:                    I


              internal controls over grant management;

              pre-award selection process;

              administration of grant funds; and

              evaluation and oversight of subgrantees.

Based on results of procedures performed, we offer the following preliminary assessments
regarding the Commission's systems for administering AmeriCorps grants:

              The Commission did not have procedures to reconcile the cumulative balances of
              Financial Status Report (FSR) expenditures, Payment Management System
              (PMS) cash drawdowns, and State accounting records.

              The Commission did not document its consideration of past performance or
              financial risk assessments during the subgrantee selection process.

              The Commission did not close out its Competitive, Formula, and Administrative
              grants on time.

               The Commission did not adequately document its review of subgrantee expense
               documentation, member files, and member interviews.

               The Commission did not use the results of risk assessments in its subgrantee
               monitoring and evaluation process.
               The Commission did not adequately document its review of subgrantee audig
               reports.

               The Commission did not maintain grant file documents in accordance with
               record-retention policies.

The findings and recommendations presented in this report describe these matters in detail.

During the period of our pre-audit survey, the Commission's AmeriCorps grants were not
audited as a major program under Office of Management and Budget (OMB) Circular A-1 33.

Based on results of our preliminary assessment, we do not recommend performing a full-scope
audit for Program Years 2001-2002 and 2002-2003. We recommend that the Corporation follow
up with the Commission to determine that appropriate corrective actions have been taken to
address conditions reported herein, and that the Corporation consider these conditions in its
future oversight and monitoring of the Commission.

BACKGROUND

Corporation for National and Community Service

The National and Community Service Trust Act of 1993, which amended the National and
Community Service Act of 1990, established the Corporation for National and Community
Service. The Corporation funds opportunities for Americans to engage in service that fosters
civic responsibility, strengthens communities, and provides educational opportunities for those
who make a substantial commitment to service.

The Corporation awards grants and cooperative agreements to State commissions, nonprofit
entities, tribes, and territories to assist in creating full-time and part-time national and community
service programs. Through these grants, AmeriCorps members perform service to meet
educational, human, environmental, and public safety needs throughout the nation, with special
attention focused on needs related to poverty. In return for their service, program participants
may receive a living allowance and a monetary award for educational purposes.

The Corporation awards approximately 75 percent of its AmeriCorps funds to State
commissions. State commissions are responsible for developing and communicating a vision
and ethic of service throughout their States.

Additionally, State commissions distribute funds to subgrantees to administer service programs.
State commissions are responsible for monitoring subgrantee compliance with grant
requirements. The commissions are also responsible for providing training and technical
assistance to service programs. State commissions are, however, prohibited from directly
operating service programs.
Montana Commission on Community Service

Montana AmeriCorps programs are administered by the Governor's Office of Community
Service, a State agency which is the administrative arm of the Montana Commission on
Community Service (Commission). The Commission is attached to the State Department of
Labor and Industry (DLI) for administrative purposes only.

The Commission operates with an executive director, program manager, and administrative
assistant. To adequately segregate duties with limited resources, many of the financial functions
of the Commission, such as payments to subgrantees and cash management activities, are
handled by the Fiscal Support Bureau (FSB) of DLI.

As part of the Montana State Government, the Commission is included in the biannual OM
Circular A-133 audit. In the past four fiscal years, however, the Corporation's grants have ot
been selected as major programs, and the Commission has not received any other audits or
reviews by the State. The State's OMB Circular A-133 audit has received an unqualified opinion
                                                                                                t
for the past four years, indicating that the State's documented control environment is adequate
for Federal grants management.

During our review, we noted that the Commission followed State procedures and internal
controls. Additionally, DL1 has been subject to audits and reviews performed by the same
agency that performs the OMB Circular A-133 audits. These reports did not identify any
weaknesses in controls over grants management that would affect the Commission. Therefore,
while Commission grants were not specifically tested, controls established by the State and used
by the Commission appeared to be adequate for administering Federal awards.

The Commission provided the following information for Program Years 2001-2002 and 2002-
2003 :

                                                                   Program Years
                                          2001-2002        2001-2002        2002-2003     2002-2003
Funding Source and Type                      Budget            Actual        Budget           Actual
Administrative Grant                     $     135,319     $     135,319    $ 133,316     $     133,316
PDAT                                           111,000           11 1,000      lO3,OOO          lO3,OOO
Disability                                      64,386            44,709        67,405           72,235
AmeriCorps-Competitive                        294,406          1,482,074       573,275        1,459,438
AmeriCorps-Formula                             1 76,74 1         144,406       69 1,220         575,471
State Matching Fund                          1,226,629         1,419,241     1,585,213        1,39$,533
Total Funding                                                                             $3.73 $993
OBJECTIVES, SCOPE, AND METHODOLOGY

The Office of Inspector General engaged Cotton & Company to assess systems and proced&es
in place at the Commission for administering AmeriCorps grants and monitoring subgranteq
fiscal activity. The primary purpose of this pre-audit survey was to evaluate the adequacy of the:

               internal controls over grant management;

               pre-award selection process;

               administration of grant funds; and

               evaluation and oversight of subgrantees, including fiscal monitoring of
               AmeriCorps subgrantees, monitoring of program accomplishments and other
               performance statistics, and monitoring of AmeriCorps member eligibility and
               service-hour reporting.

Our survey included the following procedures:

               Reviewing applicable laws, regulations, grant agreements, and provisions; the
               Corporation's State Administrative Standards Tool; and other information to gain
               an understanding of legal, statutory, and programmatic requirements.

               Reviewing the State's recent OMB Circular A-133 reports and other audit and
               review reports for DLI.

               Obtaining information from Commission management to complete the flowcharts
               in Appendix A, which show disbursement of Corporation funding to the
               Commission for Program Years 200 1-2002 and 2002-2003.

               To the extent possible, conducting inquiries, observations, investigations, and
               examinations of a limited sample of source documents to meet the objectives and
               methodology specified in Appendix B.

The findings and recommendations presented in this report summarize the results of our work.
We discussed all findings with Commission management during an exit conference on May 2 1,
2004. We also provided a draft of this report to the Commission and the Corporation for their
responses, which are included as Appendices C and D, respectively.

RESULTS OF FIELDWORK

Internal Controls

According to 45 CFR 5 2541.200(b)(l), which prescribes standards for financial
systems, the Commission must maintain systems that provide "[alccurate,
disclosure of the financial results of financially assisted activities."
Commission to provide "[elffective control and accountability . . . for all grant and subgrant
cash, real and personal property, and other assets."

As a Montana State entity, the Commission follows State accounting policies and procedure/s and
other guidance. Additional procedures are documented in the Commission's Guide to
AmeriCorps Program Management which contains all of the grant management policies relkted
to Corporation grants.

The FSB provides support to the Commission by managing of Corporation funds and provides
additional segregation of duties. The FSB processes subgrantee payments, other accounts
payable, and drawdowns; it also performs cash management functions. The State accounti
system has separate codes specific to each Federal grant to track Commission activity and t
track payments to each subgrantee.

To initiate a payment, the Commission must provide an approved payment request to the F9B.
The FSB ensures that payments are made to subgrantees only with proper approval and available
grant funds. The FSB also is responsible for drawdowns and prepares periodic drawdown
requests based on expenditures incurred in each grant code. The Commission does not draw
down Federal funds in advance of disbursement, but may approve a one-month advance of start-
up funds for subgrantees.

Issue: The Commission did not have procedures to reconcile the cumulative balances of
FSR expenditures, PMS cash drawdowns, and State accounting records.

The Commission did not reconcile cumulative expenditures reported on FSRs to the State
accounting system records and on the Department of Health and Human Services' PMS cash
drawdown balances. The Commission reported cumulative expenditures of $1,358,070 on its
Formula FSR, compared to State accounting system records and PMS cash down balances af
$812,396. A material difference of $545,674 exists.

OMB Circular A-102, Grants and Cooperative Agreements with State and Local Governmehts,
Attachment, Paragraph (3)(b), states that continuing Federal awards must be reconciled at least
annually, and program performance and financial reports must be evaluated. The Circular
requires the following items to be reviewed:

               (1) A comparison of the recipient's work plan to its progress reports and
               project outputs;

               (2) The Financial Status Report (SF-269);

               (3) Request(s) for payment;

               (4) Compliance with any matching, level of effort or maintenance of effort
               requirement; and

               (5) A review of federally-owned property.
The difference is the result of a problem in the Web Based Reporting System (WBRS). WUen
the first Formula FSR was prepared in August 2001, WBRS erroneously reported past
expenditures on the competitive grant of $545,674 as the beginning balance of the first Formula
FSR. The Commission had internal controls in place to ensure that individual drawdowns were
supported by claimed expenditures. It did not, however, realize the importance of reconcili~g
cumulative expenditures to cash drawdowns on a regular basis, which would have identified and
corrected this error earlier.

Expenditures reported on FSRs were not properly supported by the State accounting system and
were not the actual expenditures incurred under this grant. Periodic reconciliation is important to
ensure that amounts reported to the Corporation are accurate, overpayments to subgrantees are
identified, requests for additional obligations or deobligations can be made promptly, and
officials with first-hand knowledge are still available to make decisions or respond to questions.

Recommendation: We recommend that a formal policy be developed to ensure that perioqc
reconciliations be performed of cumulative claimed costs. The policy should include procedures
requiring that differences be investigated and resolved with explanations documented.

Selecting Subgrantees

According to 45 CFR 5 2550.80(b)(l), State commissions are required to "[aldminister a
competitive process to select national service programs to be included in any application to the
Corporation for funding. "

The Commission administered an open, competitive process to select national service
subgrantees. It provided notification of available funding through a variety of sources, in
accordance with its Guide to AmeriCorps Program Management. The Commission also held
informational meetings for new program applicants to provide them with basic information
regarding the AmeriCorps program, including programmatic requirements and grant review
components.

The Commission's review committee was comprised of one commissioner and three
professionals from the nonprofit community who had prior grant experience. Each review
committee member independently scored each application. Then, the committee members
discussed the applications and ranked them. Commission employees also reviewed new
proposals to analyze peer review results and further scrutinize the strengths and weaknesses of
all proposals. The review committee did not typically conduct reviews for continuation
proposals. For these, Commission employees conducted reviews of past performance and future
plans.

Commissioners make final funding decisions based on the results of the reviews. Successful and
unsuccessful applicants are notified of the results, and evaluation documents are available fqr
review after the award process is complete.
Issue: The Commission did not document its consideration of past performance or
financial risk assessments during the subgrantee selection process.

The Commission did not document its consideration of past performance or financial risk
assessments for new proposals submitted by subgrantees that had been previously funded. Pre-
Award and Financial Risk Assessment and Past Performance Review forms were not comp$ted

                                                                                            i
for previously funded subgrantees. Without adequate documentation, we are unable to dete mine
if past performance and financial risk assessments were utilized during the subgrantee selec ion
process.

According to 45 CFR 3 2522.410(b)(2), Organizational Capacity, '"tlhe Corporation will aliso
consider an organization's capacity to carry out the program based on . . . the past performance
of the organization or program."

Recommendation: We recommend that the Commission utilize the Pre-Award and Financial
Risk Assessment and Past Performance Review forms during the subgrantee selection process
for all subgrantees, regardless of whether they have been previously funded.

Administering Grant Funds

According to 45 CFR fj 2550.80(d), State commissions "will be responsible for administering the
grants and overseeing and monitoring the performance and progress of funded programs.''

The Commission provided reporting guidance for FSRs, Periodic Expense Reports (PERs), and
Quarterly Progress Reports to subgrantees. Subgrantee reporting due dates were set to allow the
Commission to report to the Corporation in a timely manner. Late or incorrectly submitted
reports resulted in a one percent penalty of total accrued expenditures upon a second offense.
The Commission reconciled subgrantee FSR balances to cumulative expenditures as reported on
the Payment Request submitted by the subgrantees, to ensure the accuracy of FSRs.

The Commission communicated document-retention requirements to subgrantees at orientation
sessions as well as during the grant closeout process.

As noted above, the Commission had adequate controls and segregation of duties for reimbursing
subgrantee expenditures.

Issue: The Commission did not close out its Competitive, Formula, and Administrative
grants on time.

The Commission did not close out its Competitive, Formula, and Administrative grants within 90
days of the end of each project period, as required. The Commission stated that it was waiting
for Corporation notice to close out the grants.

According to 45 CFR 5 2541 SOO(b) Closeout-reporting, the grantee must submit all financial,
performance, and other reports required as a condition of the grant within 90 days of grant
expiration or termination.
Project period and close-out due dates for each grant are summarized as follows:
                 -   -   --


                                                                          Close-Out
            Grant                      Project Period                     Due Date
       Competitive                 0910 1/2000-1213112003                 0313012004
                                    (Amendment No. 12)
       Formula                     0910 1/2000-11/30/2003                 02/28/2004
                                     (Amendment No. 3)
       Administrative              01/01/2001-12/31/2003                  03130/2004
                                     (Amendment No. 3)

The Commission was not in compliance with the Corporation's grant closeout requirements. If
the programs are not properly closed out in time, the Corporation cannot know the status ofithe
programs and whether any additional funding will be requested.

Recommendation: We recommend that the Commission immediately close out its overdue
Competitive, Formula and Administrative grants.

Evaluatin~and Monitoring Grants

The Commission monitors subgrantee performance, evaluates program operations, and regulates
compliance by conducting formal site visits of the subgrantees' offices at least once a year. The
Commission also conducts site visits of the subgrantees' operating sites. Prior to conducting site
visits, the Commission contacts subgrantees to discuss the purpose of the site visit. The
Commission also reviews subgrantee progress reports, prior site visit reports, and other grant
materials prior to conducting the site visit.

The Commission documents its site visit using the Montana Program Review Instrument
(MPRI). The MPRI consists of five modules that cover AmeriCorps laws, provisions, and other
Federal requirements. The five modules include reporting and communication compliance,
member documentation compliance, financial compliance, policies and procedures compliance,
and program effectiveness compliance. The Commission usually completes two or three
modules in one year and completes the remaining modules in the following year.
When reviewing member compliance, the Commission selects a judgmental sample of member
files and reviews the files to ensure that members are eligible to perform services, service hours
are only accumulated for authorized activities, members are being paid according to established
guidelines, members receive orientation and training, and members are not performing
prohibited activities.

When reviewing for financial compliance, the Commission reconciles FSR expenditures to
subgrantee accounting records and selects a judgmental sample of expenditures to test for
allowability and proper support. The Commission also conducts interviews and administers1
                                                                                             i
surveys with program staff, members, and service recipients during site visits. The Commi sion
uses the questionnaires and surveys to provide additional information for its assessment of ;
program effectiveness. Upon completion of the site visit, the Commission sends the subgradtee a
                                                 8
summary of the site visit, including names of staff members that participated, statements
summarizing comments of members interviewed, and any findings that were identified.

The Commission ensures that subgrantees comply with the requirements of OMB Circular A-1 33
by obtaining and reviewing subgrantee audit reports.

Issue: The Commission did not adequately document its review of subgrantee expense1
documentation, member files, and member interviews.

The Commission did not maintain documentation to support all subgrantee monitoring effohs
during the subgrantee monitoring site visits. Specifically:

               The Commission stated it reconciled FSR expenditures to subgrantee accounting
               records and selected a judgmental sample of expenditures to test for allowability
               and proper support. No evidence exists to indicate whether discrepancies between
               FSR and subgrantee accounting records were identified and resolved, or to
               indicate the type of expenditure and expense documents reviewed during site
               visits.

               The Commission stated that it reviewed a judgmental sample of member files for
               compliance during site visits; however, there was no evidence to indicate the
               number of member files that were selected for review during the site visit or
               whether any problems were noted.

               The Commission stated that it conducted interviews with members. It did not,
               however, document the names of those members or specific discussion topics.

According to 45 CFR 5 2541.400(a), Monitoring by grantees, grantees are responsible for
managing the day-to-day operations of grant and subgrant supported activities. Grantees must
monitor grant and subgrant supported activities to ensure compliance with applicable Federal
requirements and that performance goals are being achieved. Grantee monitoring must cover
each program, function, or activity. Additionally, section 4.3 of the Reference Manual for
Commission Executive Directors states that the commission must evaluate whether the
subgrantees comply with legal, reporting, financial management, and grant requirements and
follow through on issues of noncompliance.

The Commission did not realize the importance of adequately documenting all of its monitoring
efforts during the site visits.

Without documenting this information, the Commission cannot readily provide documentation to
show that certain monitoring efforts were made. As a result, we were unable to determine if the
Commission has adequate procedures to ensure allowability of costs claimed, member eligibility,
and accuracy of member service hours. In addition, we could not determine if interviews were
conducted, what information was discussed during the interviews, and whether any specific
issues were identified. Thus, we could not ensure that key topics, such as prohibited activit es
and training support, were discussed during the member interviews.                          fI
Recommendation: We recommend that the Commission document the expenditure and member
files sampled, which aspects are reviewed, contents of interviews with members, the names of
those interviewed, the results of the review, and follow-up actions on identified issues.

Issue: The Commission did not use the results of risk assessments in its subgrantee
monitoring and evaluation process.

The Commission did not monitor and evaluate subgrantees using the results of risk assessm$nts.
While the Commission utilizes pre-award and financial risk assessments in the new subgrantee
selection process, the Commission does not use the results of these assessments in the subgrpntee
monitoring process. The Commission uses the same monitoring techniques for all
regardless of whether they are new and in the first year of operation or a
in the fifth year of operation. In addition, the Commission does not
size of the subgrantee, amount awarded to the subgrantee, or past
monitoring and evaluating subgrantees.

Per 45 CFR § 2541.400(a), Monitoring by grantees, grantees are responsible for managing the
day-to-day operations of grant and subgrant supported activities. Grantees must monitor grant
and subgrant supported activities to ensure compliance with applicable Federal requirements and
that performance goals are being achieved. Grantee monitoring must cover each program,
function, or activity.

The Commission was unaware that it should be using risk assessments or results of risk
assessments in the subgrantee monitoring and evaluation process. Without use of the risk
assessments or the results of risk assessments in the subgrantee monitoring and evaluation
process, subgrantees may not be adequately monitored. For example, high-risk areas may not be
covered during site visits, potentially resulting in problems remaining unidentified and
unresolved.

Recommendation: We recommend that the Commission utilize risk assessments in the
subgrantee monitoring and evaluation process.

Issue: The Commission did not adequately document its review of subgrantee audit
reports.

The Commission did not have detailed documentation of its desk reviews of subgrantee audit
reports. The only documentation of the Commission's reviews of a subgrantee audit report were
three completed lines on the Grant File Review Checklist. 'The three lines indicated whether an
A-1 33 or equivalent audit report had been received, whether findings or actions had been
identified, and whether further action and responses from the subgrantee were required.

According to 45 CFR 5 2541.400(a), grantees are required to monitor grant and subgrant
supported activities to ensure compliance with applicable Federal requirements and that
performance goals are being achieved. Additionally, Section 4.3 of the Reference Manualfir
Commission Executive Directors requires the Commission to evaluate whether the subgrant~es
comply with legal, reporting, financial management, and grant requirements, and the
Commission must ensure follow through on issues of noncompliance.

The Commission considered its documentation on the Grant File Review Checklist sufficiedt to
support its review of the subgrantee audit reports. Without adequate documentation of revidw of
subgrantee audit reports, we cannot easily determine if the possible presence of material
weaknesses, reportable conditions, findings, and questioned costs related to the Corporation
grant.
Recommendation: We recommend that the Commission improve documentation of its review
of subgrantee audit reports to include information about material weaknesses, reportable
conditions, findings, and questioned costs identified in the audit reports related to Corporation
funding and take appropriate follow-up actions to address identified issues.

Issue: The Commission did not maintain grant file documents in accordance with record-
retention policies.

The Commission did not ensure that all grant files were maintained as required by Corporation
record-retention policies, as identified in the AmeriCorps provisions. Specifically, the
Commission was unable to provide the following documents:

               Conflict of Interest (COI) Certification for one peer reviewer for Program Year
               2003-2004.

       rn      OMB Circular A- 133 audit report for one subgrantee for the fiscal year ending
               June 30,2002.

               Press releases from the Governor's office announcing availability of Commi$sion
               funds for the Program Year 2003-2004 subgirantee selection processes.

AmeriCorps General Provision 26, Retention of Records, requires grantees to retain and make
available all financial records, supporting documentation, s1:atistical records, evaluation and
program performance data, member information, and personnel records for three years from the
date of the final FSR.

The Commission did not know why the COI certification and OMB Circular A- 133 report were
missing from its files, but thought that the OMB Circular A-1 33 report had been submitted to the
Corporation. The Commission stated that the Governor's office was attempting to locate the
announcement.

Without these documents, the Commission was unable to provide evidence that all subgrantee
selection reviewers were free of conflicts, all available OM B Circular A- 133 reports were
obtained and reviewed, and the availability of funds for Program Year 2003-2004 was properly
advertised.
Recommendation: We recommend that the Commission strengthen current record-retentio
polices to ensure that all grant documents are retained.
                                                                                              n
                                                 11
                                                                                                                 APPENDIX A
                                                                                                                        Page 1 of 2
                                   Office of Inspector General
                         Corporation for National and Community Service
                               State Commission Pre-Audit Survey
                                  Funding Hierarchy Flowchart



                         Corporation for National and Community Service
                     Funding to the Montana Commission on Community Service
                                     For Program Year 200 1-2002




    T
                                                      A- L
       AmeriCorps
        Formula
                                AmeriCorps
                                Competitive
                                                         Disability
                                                          Funds
                                                                                   PDAT
                                                                                   Funds
                                                                                                      I-Administrative
                                                                                                           Funds
         Funds                    Funds

         $l76,74 1               $294,406                                                                   $135,319

           Match
          $98,544
                                  Match
                                 $990,340
                                                                                                             Match
                                                                                                            $1 37,745      I
            +
                     Total Corporation Funds Retained by the Commission: $256,3 19
                               Total Commission Matching Funds: $1,226,629

                     Total Corporation Funds Awarded to Subgrantees: $1,796,693                       '

      f                                                 f-
                                                         A
       AmeriCorps
        Formula
                                 AmeriCorps
                                 Competitive
                                                           Disability                PDAT

                                                                                                      -l  Administrative




           Match                    Match                                                                    Match
          $90,206                 $1,133,914                                                                $195,121

      Total # of SUBS           Total # of SUBS         Total # of SUI3S        Total # of SUBS       Total # of SUBS
             -I-                      -5   -                   -1-                     -0-                   -0-
      Total # of Sites          Total # of Sites         Total # of Sites       Total # o f Sites      Total # of 3ites
             -1-                      -28-                     -1 -                    -0-                   -0-



Note 1: Due to the carry over of Corporation funds from the previous program year, the amount of Corporation funds
subgrantees exceeds the funds obtained from the Corporation during the current program year.
                                 Office of Inspector General
                       Corporation for National and Community Service
                             State Commission Pre-Audit Survey
                                Funding Hierarchy Flowchart


                        Corporation for National and Community Service
                    Funding to the Montana Commission on Community Service
                                   For Program Year 2002-2003



                                                                                                       L
      AmeriCorps               AmeriCorps                                                              Administrative
       Formula                 Competitive                                       Funds                    Funds
        Funds                    Funds

       $691,220                                                                 $1 03,000

         Match
                          1       Match
                                $1,127,374
                                                                                                          Match
                                                                                                         $160,379



                                    +
                    Total Corporation Funds Retained by the Commission: $246,3 16

                              Total Commission Matching Funds: $1,585,213

                    Total Corporation Funds Awarded to Subgrantees: $2,235,673'



                                                    L                       L
        Formula
                               ArneriCorps
                               Competitive
                                                        Disability               PDAT              I   Administrative



                                $1,459,438                                                                $133,316

         Match                    Match                                                                    Match
        $3 12,689               $1,009,330                                                                $73,5142

    Total # of SUBS           Total # of SUBS       Total # of SUBS         Total # of SUBS            Total # of SUBS
            -4 -                    -3 -                   -1 -                    -0 -
    Total # of Sites          Total # of Sites       Total # of S ites       Total # of Sites
           -29-                     -25-                   -1 -                    -0 -



Note 1: Due to the carry over of Corporation funds from the previous program year, the amount of Corporation funds awarded to
subgrantees exceeds the funds obtained from the Corporation during the clxrent program year.
Note 2: The Commission cumulative match contribution met the minimurn matching requirement.
                                                                                   APPENTX
                                                                                       Page    of 4

                                Office of Inspector General
                     Corporation for National and Community Service
                            State Commission Pre-Audit Survey
                       Montana Commission on Community Service
                     Detailed Engagement Objectives and Methodology


INTERNAL CONTROL

Our objective was to assess the adequacy of financial systems and documentation maintained by
the Commission to provide reasonable assurance that transactions were properly recorded and
accounted for to: (1) permit preparation of reliable financial statements and Federal reports; (2)
maintain accountability over assets; and (3) demonstrate compliance with laws, regulations, and
other compliance requirements.

To achieve these objectives, we reviewed promulgated guid.ance as well as identified internal
control objectives and characteristics related to the Commission's ability to ensure compliance
with Federal laws, regulations, and program requirements. We interviewed Commission a d
Fiscal Support Bureau (FSB) staff, and reviewed related documents, including the Commission's
Guide to AmeriCorps Management, to gain an understanding of the control environment. We
also reviewed operating procedures in place regarding allovlrable costs, eligibility, cash
management, matching, period of availability of Corporation funds, procurement, suspensian and
debarment, program income, and Commission reporting to the Corporation.

We reviewed reports prepared by both the Commission and the FSB, such as accounting revenue
and expenditures status reports, and in-kind contribution reports, for accuracy and completeness.
We compared internal documents to financial reports submitted to the Corporation as well as
reports submitted to the U.S. Department of Health and Human Services for drawdown activities.
We reviewed subgrantee expenditure reports and Commission financial reports to note controls
on matching requirements.

SELECTING SUBGRANTEES

Our objective was to determine if the Commission had an open, competitive process to select
national service subgrantees. We examined policies and procedures related to assessing the
adequacy of potential subgrantee financial systems, subgrantee controls to administer a Federal
grant program, and processes for preventing conflicts of interest in the selection process at the
Commission. We also determined if the Commission's systems and controls for selecting
subgrantees appeared to be functioning as designed.

To achieve these objectives, we interviewed key Commissitm management and documente
procedures performed by the Commission during the pre-award financial and programmati risk    1
                                                                                             1

assessment of potential subgrantees. We also interviewed key Commission management a$
documented procedures performed by the Commission to select subgrantees. Next, we obtdined
and reviewed guidance provided to selection officials and documentation supporting the
evaluation and grant awards process. We reviewed policies for selecting subgrantees in the
Commission's Policies and Procedures Manual.

To test whether the Commission's systems and controls related to selecting subgrantees we e
functioning as designed, we took a judgmental sample of applicants, including new award ,   si
recipients, renewals, and those denied funding. We then reviewed all supporting document$tion,
including conflict-of-interest forms, risk assessment tools, evaluation committee packages, '
correspondence, memorandums, and e-mails.

ADMINISTERING GRANT FUNDS

Our objectives were to:

              Assess the adequacy of systems and controls used by the Commission to maintain
              appropriate financial management systems to disburse funds and track
              Commission and program expenses according to legal and grant requirements.

              Determine if the Commission's organizational structure, staffing level, and
              staffing mix were conducive to effective grant administration.

              Determine if the Commission provided adequate guidance to subgrantees for
              maintaining financial systems, records, and supporting documentation and
              reporting subgrantee activity.

              Assess the adequacy of financial systems and Commission documentation to
              support oversight of subgrantees and required reporting to the Corporation, such
              as FSRs, enrollment and exit forms, change-of-status forms, and audit reports.

              Determine if the Commission had procedures in place to verify the accuracy and
              timeliness of reports submitted by subgrantees.

To achieve the above objectives, we interviewed key Commission and FSB managers and
documented policies and procedures used to administer grant funds. We also gained an
understanding of both manual and automated systems used by Commission and FSB persoqnel
to administer grant funds. We obtained and reviewed the Commission's official policies and
procedures related to administering grant funds, as established in its Guidance to AmeriCorJs
Program Management.
                                                                                  APPENdIX B
                                                                                           4
                                                                                    Page of 4

We then discussed controls over grant expenditures and subgrantee match information with
Commission management. We reviewed documents supporting established controls over
matching. We also tested whether the Commission's systems and controls related to
administering grant funds were functioning as designed. We reviewed FSRs for a judgment@
sample of subgrantees to test for timeliness of submission. We also compared amounts repdrted
on FSRs to cash drawdowns by the Commission for any material discrepancies.

EVALUATING AND MONITORING GRANTS

Our objectives were to:

              Identify and assess the adequacy of systems and controls used by the Commission
              to implement a comprehensive evaluation and monitoring process for its
              subgrantees.

              Determine if the Commission had an established subgrantee site visit program in
              place and assess the effectiveness of its design in achieving monitoring objectives.

              Determine the adequacy of Commission procedures to assess subgrantee
              compliance with Corporation regulations (e.g., eligibility of members, service-
              hour reporting, prohibited activities, payment of living allowances to members,
              and allowability of costs claimed under grani:s by subgrantees).

              Assess the adequacy of Commission procedures for obtaining, reviewing, and
              following up on findings included in subgrantee single audit reports, where
              applicable.

              Determine if program goals were established, and if program results and
              performance statistics were accurately reported and compared to these goals.

              Assess the adequacy of procedures in place to evaluate whether subgrantee
              programs were achieving their intended purposes.

To achieve these objectives, we interviewed key Commission managers and documented palicies
and procedures used by the Commission for monitoring and evaluating subgrantees, including
controls over obtaining and reviewing subgrantee OMB Circular A-133 reports. We obtained
and reviewed Commission policies and procedures related to monitoring and evaluating
subgrantees, as established in its Guide to AmeriCorps Program Management.

To determine if established controls were in place, we judgmentally selected a sample of
subgrantees and reviewed monitoring documentation, including site visit monitoring tools. w e
                                                                                 A P P E N ~ I XB
                                                                                    Page 4 of 4

also reviewed training documents and member contracts to determine if proper monitoring of
prohibited member activities was being conducted. We tested the Commission's processes and
controls related to evaluating and monitoring subgrantees to determine if they were functioning
as designed. Our testing methodology included selecting a.judgmenta1 sample of subgrantee
files and reviewing documentation to verify that policies and procedures were in place and
functioning properly. We further determined if the Commission had received and reviewedl
OMB Circular A-1 33 audit reports from subgrantees.                                        I




We then discussed the Corporation's Government Performance and Results Act goals with
Commission management. For a judgmental sample, we reviewed subgrantee evaluation files to
ensure that they included program accomplishment information.
Stuart Axenfeld
Audit Manager
Corporation for National and Community Service
1210 New York Avenue NW
Washington, DC 20525

Dear Mr. Axenfeld:

I am writing in response to the Pre-Audit Survey of the Montana Commission orl
Community Service - Draft Report prepared by Ccltton and Company. I have
tried to address each of the Issues identified in the draft report in a positive
manner.

ISSUE
      .        The Commission did not have procetJures to reconcile the
               cumulative balances of Financial Status Reporf (FSR)
               expenditures, Payment Managemen]'System (PMS) cash
               drawdowns, and State accounting records.
        Montana Commission Response: We thank you for bringing this issue to
        our attention. Even though the cause of this problem was a technical
        issue with the WBRS system we acknowledge the need to develop a
        process that will identify problems like this in the future. We will institute la
        policy of comparing Financial Status Reporls (FSR) and Payment
        Management System (PMS) totals on a quarterly basis and reconciling
        any discrepancies in a timely fashion.

ISSUE
        .      The Commission did not document its consideration of past
               performance or financial risk assessments during the subgrantee
               selection process.
        Montana Commission Response: We agree with this issue. We will
        amend our Guide to AmeriCorps Program Management to include a Pre-
        Award and Financial Risk Assessment and Past Performance Review
        forms for the review of continuation requests. We will continue to use this
        process with all new applicants

ISSUE
        .      The Commission did not close out its: Competitive, Formula, and
               Administrative grants on time.
        Montana Commission Response: We acknowledge the misunderstandin~g
        about the deadline for closing out grants. It was our understanding that the
        Corporation would issue a formal notice of the deadline for closeouts. We
        have complete the closeout on the Competitive and Formula grants on
        July 30, 2004, and will have the Administrative Grant closed out by ~ u g u b t
        31, 2004.
ISSUE
              The Commission did not adequately document its review of
             subgrantee expense documentation, member files, and member
             interviews.
        Montana Commission Response: We agree with this recommendation.
        The Commission will enhance our Guide to AmeriCorps Program
        Management to include the necessary documentation of the expenditure
        and member files sampled.

ISSUE
               The Commission did not use the resirlts of risk assessments in its i
              subgrantee monitoring and evaluation process.
        Montana Commission Response: We agree with this issue. We will            1
        develop and implement policies to incorporate risk assessment in our
        Guide to Program Management which governs our subgrantee monitorin$
        and evaluation process.

ISSUE
               The Commission did not adequately document its review of
               subgrantee audit reports.
        Montana Commission Response: We agree with this issue. We will
        expand the questions on our existing monitoring instruments to reflect
        information about material weaknesses, reportable conditions, findings,
        and questioned costs identified in the audit reports. We will also enlist
        support from the Fiscal Support Bureau of the Dept. of Labor and Industry
        to assist in the review of these audits.

ISSUE
                The Commission did not maintain grant file documents in
                accordance with record-retention po1,icies.
        Montana Commission Response: We conc11Jrwith the recommendation
        that Commissions have strong record reten1:ion policies in place and we
        will continuie to monitor the proper retentior of all records under the
        purview of the Commission.

        Please feel free to contact me if you need additional information or
clarification of these issues.

Sincerely,


Steve P. Nelsen
Executive Director
Montana Commission on Community Service.
Cc George Dennison, Chair
                                Corporation for       A




To:

From:

Cc:          Michelle ~uillermin,Chief ~ikancialOfficer
             Rosie Mauk, Director of ArneriCorps

Date:        August 5,2004

Subject:     Response to OIG Draft Audit Report 04- 18, Pre-Audit Survey of the
             Montana Commission on Community Service


We have reviewed the draft Pre-Audit Survey of the Montana Commission on
Community Service. Due to the limited timeframe for response, we have not thoroughly
reviewed the report. However, we discussed the report with the Commission and agree
with the auditor's recommendations. The Commission has agreed to implement
corrective action as recommended. Within the next four months, the Corporation will
follow up with the Commission to confirm that implementation is complete.




                      1201 New York Avenue, NW t W;~shington,DC 20525
                            202-606-5000 * www.nationalservice.org
                     Senior Corps   * ArneriCorps * Learn and Serve America       Freedom Corps
                                                                                             *
                                                                                  The Prcstdent's Call   to   Service
